<html>
<title> - IDENTITY VERIFICATION IN A POST-BREACH WORLD</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
              IDENTITY VERIFICATION IN A POST-BREACH WORLD

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 30, 2017

                               __________

                           Serial No. 115-83
                           
                           
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
 
                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-714 PDF            WASHINGTON : 2018                              
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 

              Subcommittee on Oversight and Investigations

                                VACANCY
                                
                                 Chairman
H. MORGAN GRIFFITH, Virginia         DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            KATHY CASTOR, Florida
SUSAN W. BROOKS, Indiana             PAUL TONKO, New York
CHRIS COLLINS, New York              YVETTE D. CLARKE, New York
TIM WALBERG, Michigan                RAUL RUIZ, California
MIMI WALTERS, California             SCOTT H. PETERS, California
RYAN A. COSTELLO, Pennsylvania       FRANK PALLONE, Jr., New Jersey (ex 
EARL L. ``BUDDY'' CARTER, Georgia        officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. H. Morgan Griffith, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     2
    Prepared statement...........................................     3
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................     9

                               Witnesses

Troy Hunt, Information Security Author and Instructor, 
  Pluralsight....................................................    11
    Prepared statement...........................................    13
    Answers to submitted questions...............................    99
Jeremy Grant, Managing Director, Technology Business Strategy, 
  Venable, LLP...................................................    25
    Prepared statement...........................................    28
    Answers to submitted questions...............................   102
Edmund Mierzwinski, Consumer Program Director, U.S. PIRG.........    47
    Prepared statement...........................................    49

                           Submitted Material

Subcommittee memorandum..........................................    95


              IDENTITY VERIFICATION IN A POST-BREACH WORLD

                              ----------                              


                      THURSDAY, NOVEMBER 30, 2017

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2322, Rayburn House Office Building, Hon. H. Morgan 
Griffith (vice chairman of the subcommittee) presiding.
    Members present: Representatives Griffith, Brooks, Collins, 
Walberg, Costello, Carter, Walden (ex officio), Schakowsky, 
Castor, Tonko, Clarke, Ruiz, and Pallone (ex officio).
    Staff present: Jennifer Barblan, Chief Counsel, Oversight 
and Investigations; Samantha Bopp, Staff Assistant; Adam Fromm, 
Director of Outreach and Coalitions; Ali Fulling, Legislative 
Clerk, Oversight and Investigations, Digital Commerce and 
Consumer Protection; Elena Hernandez, Press Secretary; Paul 
Jackson, Professional Staff Member, Digital Commerce and 
Consumer Protection; Bijan Koohmaraie, Counsel, Digital 
Commerce and Consumer Protection; Alex Miller, Video Production 
Aide and Press Assistant; John Ohly, Professional Staff Member, 
Oversight and Investigations; Hamlin Wade, Special Advisor for 
External Affairs; Jessica Wilkerson, Professional Staff Member, 
Oversight and Investigations; Greg Zerzan, Counsel, Digital 
Commerce and Consumer Protection; Julie Babayan, Minority 
Counsel; Jeff Carroll, Minority Staff Director; Chris Knauer, 
Minority Oversight Staff Director; Miles Lichtman, Minority 
Policy Analyst; Dino Papanastasiou, Minority GAO Detailee; and 
C.J. Young, Minority Press Secretary.
    Mr. Griffith. We will go ahead and get started.
    Welcome to this meeting of the O&I Subcommittee of Energy 
and Commerce. So that everybody knows, there are a lot of folks 
who are at another hearing downstairs and will be drifting in 
and out.
    Also, I would like to take a point of personal privilege 
and recognize Allie Gilmer and Olivia Smoot, who are here 
visiting today from my district at Auburn High School in Riner, 
Virginia.
    They are too young to remember this but I started 
representing the Riner area in 1994 in the State legislature. 
So it's good to have you.
    Ms. Castor. Do you want to stand up?
    Mr. Griffith. Yes, stand up. Be recognized. Thank you.
    Thank you again. Welcome. Glad you're here with us today.
    That being said, let's get started with our business here 
today, and other folks will join us as we go forward on this 
very important issue.

OPENING STATEMENT OF HON. H. MORGAN GRIFFITH, A REPRESENTATIVE 
         IN CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    We are here today to talk about a very important topic: 
identity verification in a post-breach world. This hearing is 
especially timely, given several events that have taken place 
since the hearing itself was announced last week, including 
three newly discovered data breaches that comprised an 
additional 58.7 million records as well as two major shopping 
days--Black Friday and Cyber Monday.
    With consumers rushing to take advantage of holiday sales 
both in stores and online, the questions and challenges around 
modern identity verification become even more pressing.
    Data breaches have been increasingly--have been an 
increasing problem over the last several years. In fact, it is 
likely that everyone in this room has had their information 
included in a recent breach.
    Between the 57 million accounts comprised in Uber's recent 
disclosed 2016 breach, the 145 million accounts compromised in 
Equifax's breach, or the 22 million accounts compromised in the 
OPM breach, as well as many others, I would argue that it would 
be difficult to find an American whose information has not been 
compromised.
    While these breaches themselves are troubling enough, they 
also raise a subtle more complicated series of questions and 
issues around the ways in which organizations including 
government agencies, banks, health care organizations, and 
retail companies perform identity verification of their 
citizens and their customers.
    It is a well understood concept that, to quote the famous 
cartoon on the internet, nobody knows you're a dog when you're 
in the internet.
    This anonymity has many advantages and it is important to 
many aspects of the modern internet.
    However, as the global economy has become more and more 
digital and an increasing amount of commerce takes place 
online, it also creates significant challenges for 
organizations attempting to ensure that they provide 
information and services only to authorized individuals.
    Because these interactions usually take place on opposite 
ends of an internet connection with participants rarely if ever 
meeting face to face, the ability of organizations to remotely 
verify individuals has been a constant struggle.
    As a result, for years many organizations have relied on a 
type of identity verification known as knowledge-based 
authentication, or KBA. We are all familiar with this process 
even if we don't quite know it.
    For example, some online accounts ask consumers to provide 
answers to security questions such as their mother's maiden 
name, the make and model of their first car, or the street on 
which they grew up on.
    Similarly, when consumers attempt to open new credit lines, 
they are often asked a series of multiple-choice questions that 
may ask who provided a consumer loan and in what year.
    These are all examples of KBA. The effectiveness of KBA 
depends on a very important assumption--that information such 
as birthdays, mothers' maiden names, addresses, work histories 
and other KBA attributes remain relatively secret.
    In today's post-breach world, this is a tenuous assumption. 
Add the wealth of personal information consumers voluntarily 
share about their lives through social media and this 
assumption appears almost laughable.
    So what do we do? If modern commerce and many other 
services including government services rely on KBA for identity 
verification and that verification is no longer as secure or 
reliable as it was in the past, we need new strategies and new 
technologies to ensure that consumers are protected and 
economic growth continues and we need them quickly.
    With the exponential growth of connected devices and 
services, it is likely that we will see more data breaches more 
often, not less.
    Luckily, we are not starting from scratch. In the public 
sector, the National Institute for Standards in Technology--
NIST--spent the past several years developing strategies and 
frameworks for identity verification under their Trusted 
Identities Group--TIG.
    As a part of this work, NIST's TIG has provided funding to 
pilot programs looking to develop, implement, and leverage 
innovative new technologies that move organizations beyond KBA.
    Similarly, in the private sector, many companies and 
organizations from a wide variety of sectors have come together 
to create the Fast Identities Online, or FIDO, Alliance.
    The FIDO Alliance provides a forum for collaboration and 
cooperation around the development of standards-based 
interoperable technologies. These standards are freely 
available and already deployed in the products of companies 
like Google and PayPal.
    Our witnesses today will not only help us understand the 
cumulative impact of the dozens of data breaches that have 
occurred in recent years go also assess how current practices 
can and should be improved to protect consumers and their 
information and how it's been breached.
    Today's hearing is the start of what I expect will be a 
much longer conversation. But it's a necessary conversation to 
have as our world becomes ever more connected. Identity 
verification is a challenge that will only continue to grow.
    [The prepared statement of Mr. Griffith follows:]

             Prepared statement of Hon. H. Morgan Griffith

    We are here today to talk about a very important topic: 
identity verification in a post-breach world. This hearing is 
especially timely given several events that have taken place 
since the hearing itself was announced last week, including 
three newly disclosed data breaches that compromised an 
additional 58.7 million records, as well as two major shopping 
days, Black Friday and Cyber Monday. With consumers rushing to 
take advantage of holiday sales, both in stores and online, the 
questions and challenges around modern identity verification 
become even more pressing.
    Data breaches have been an increasing problem over the last 
several years. In fact, it is likely that everyone in this room 
has had their information included in a recent breach. Between 
the 57 million accounts compromised in Uber's recently 
disclosed 2016 breach, the 145 million accounts compromised in 
Equifax's breach, or the 22 million accounts compromised in the 
OPM breach, as well as many others, I would argue that it would 
be difficult to find an American whose information has not been 
compromised.
    While these breaches themselves are troubling enough, they 
also raise a subtle, more complicated series of questions and 
issues around the ways in which organizations, including 
government agencies, banks, healthcare organizations, and 
retail companies perform identity verification of their 
citizens and customers.
    It's a well understood concept that, to quote the famous 
cartoon, on the Internet nobody knows you're a dog. This 
anonymity has many advantages, and is important to many aspects 
of the modern Internet. However, as the global economy has 
become more and more digital, and an increasing amount of 
commerce takes place online, it also creates significant 
challenges for organizations attempting to ensure that they 
provide information and services only to authorized 
individuals. Because these interactions usually take place on 
opposite ends of an Internet connection, with participants 
rarely meeting face to face, the ability of organizations to 
remotely verify individuals has been a constant struggle.
    As a result, for years, many organizations have relied on a 
type of identity verification known as ``Knowledge-Based 
Authentication'' or ``KBA.'' We are all familiar with this 
process, even if we don't quite know it. For example, some 
online accounts ask consumers to provide answers to ``security 
questions'' such as their mother's maiden name, the make and 
model of their first car, or the street on which they grew up. 
Similarly, when consumers attempt to open new credit lines, 
they are often asked a series of multiple-choice questions that 
may ask who provided a consumer a loan, and in what year. These 
are all examples of KBA.
    The effectiveness of KBA depends on a very important 
assumption--that information such as birthdays, mother's maiden 
names, addresses, work histories, and other KBA attributes 
remain relatively secret. In today's post-breach world, this is 
a tenuous assumption. Add the wealth of personal information 
consumers' voluntarily share about their lives through social 
media and this assumption appears almost laughable.
    So what do we do? If modern commerce and many other 
services, including government services, rely on KBA for 
identity verification, and that verification is no longer as 
secure or reliable as it was in the past, we need new 
strategies and new technologies to ensure that consumers are 
protected, and economic growth continues. And we need them 
quickly; with the exponential growth of connected devices and 
services, it is likely that we will see more data breaches more 
often, not less.
    Luckily, we are not starting from scratch. In the public 
sector, the National Institute for Standards and Technology 
(NIST) spent the past several years developing strategies and 
frameworks for identity verification under their Trusted 
Identities Group (TIG). As part of this work, NIST's TIG has 
provided funding to pilot programs looking to develop, 
implement, and leverage innovative new technologies that move 
organizations beyond KBA.
    Similarly, in the private sector, many companies and 
organizations from a wide variety of sectors have come together 
to create the Fast Identities Online, or FIDO, Alliance. The 
FIDO Alliance provides a forum for collaboration and 
cooperation around the development of standards-based, 
interoperable technologies. These standards are freely 
available and already deployed in the products of companies 
like Google and PayPal.
    Our witnesses today will not only help us understand the 
cumulative impact of the dozens of data breaches that have 
occurred in recent years, but also assess how current practices 
can and should be improved to protect consumers after their 
information has been breached.
    Today's hearing is the start of what I expect will be a 
much longer conversation. But it's a necessary conversation to 
have. As our world becomes ever more connected, identity 
verification is a challenge that will only continue to grow.

    Thank you, and I yield back and now recognize Ms. Castor of 
Florida for an opening statement.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Well, thank you, Mr. Chairman, and thank you 
for calling this hearing.
    Mr. Chairman, data breaches are compromising the personal 
information of millions of Americans. The Equifax breach 
earlier this year, for example, exposed the personal 
information including names, Social Security numbers, birth 
dates, addresses, and other sensitive data of as many as 145 
million Americans.
    And there have been many more--Yahoo, JPMorgan Chase, eBay, 
Uber. We simply cannot accept this as standard operating 
procedure. When companies like Equifax, Yahoo, and Uber fail to 
protect the vast information they collect about consumers, it 
poses very serious risks.
    It's not limited to private corporations. Governmental 
entities have also failed to adequately protect personal 
private data.
    But with each data breach after each data breach, 
compromising more and more of consumers' personal information, 
we have got to ask how do we ensure an online identity can be 
verified only by the person in question.
    I also think it's important that we not forget that 
companies should be held accountable when they fail to protect 
our data.
    The Equifax breach exposed the personal information of 
nearly half of the American population and it could have been 
prevented by applying basic security standards.
    So what is the recourse? What is the appropriate recourse? 
I know that experts are working to develop methods to better 
protect online identities and I would like to hear what your 
recommended solutions are.
    Under President Obama, the White House released the 
National Strategy for Trusted Identities in Cyberspace. It's a 
framework for public and private collaboration on protecting 
digital identities and improving online transactions.
    So building on that effort, companies have begun 
experimenting with ways to improve identity verification and 
authentication.
    I would like to hear about some of these solutions as well 
as what we can do to protect consumers' privacy. As more and 
more of our lives are online, it is equally important that we 
ensure that these systems are secure and that the ways in which 
we access these systems are protected.
    I would like to thank our witnesses--Mr. Jeremy Grant, Mr. 
Troy Hunt, Mr. Ed Mierzwinski--for coming today to discuss the 
principles and various challenges in verifying online 
identities.
    Each of you brings a wealth of knowledge and experience to 
this hearing and it's a pleasure to have you here today. Thank 
you, and I yield back.
    Mr. Griffith. I thank the gentlelady.
    I now recognize the chairman of the full committee, Mr. 
Walden of Oregon.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the chairman, and we appreciate your 
leadership on this and so many other issues, and we want to 
thank the witnesses for being here today.
    We have another hearing going on downstairs on the 
anniversary of the 21st Century Cures legislation so I am 
bouncing back and forth today.
    Today's hearing is about the future of digital commerce, as 
we all know, and it's about the future of how we ensure the 
person on the other end of an online transaction is in fact the 
person they claim to be. What a concept.
    For years, we have relied on user names, passwords, and 
knowledge-based questions to confirm a user's identity. It's 
not a particularly sophisticated process. Your mother's maiden 
name or the make and model of your first car aren't exactly 
reliable forms of verification.
    Regardless, this process was suitable for a period of time 
in the evolution of our connected world but that time has long 
since passed, as we all know.
    As noted by one of our witnesses today, it was almost a 
decade ago that the 2008 Commission on Cybersecurity for the 
44th presidency highlighted identity as a frequent attack 
vector for cyberattacks.
    This prompted the previous administration to launch the 
National Strategy for Trusted Identities in Cyberspace, or 
NSTIC.
    As we will hear today, this high-level Federal attention 
encouraged the progress but we still have a long ways to go.
    How far? Well, according to Verizon's annual data breach 
investigation report, about 80 percent of breaches last year 
used identity as a point of compromise--80 percent.
    What has changed to make existing identity management 
practices so ineffectual and vulnerable to attack? There are a 
number of factors at play but the underlying answer is fairly 
simple.
    Today, the information necessary to compromise identity is 
readily available to those who wish to find it. We live in a 
post-breach world. Just look at the massive breaches that have 
occurred over the last several from Target and Home Depot to 
Yahoo, Anthem, OPM, Equifax and, most recently, Uber, to name a 
few.
    I would be surprised if anyone in this room has not had at 
least some portion of their personal details stolen in the last 
2 years, let alone their digital lifetime.
    I remember a former colleague from Michigan who chaired the 
Intelligence Committee, Mike Rogers, used to say there are two 
types of companies in America--those that know they've been 
breached and those that don't.
    It is not, however, just stolen data that undermines 
current identity verification practices. The explosion of 
social media is also a factor.
    Every day, consumers voluntarily post, tweet, and share 
details about their lives, adding to the rich data set of 
information available to malicious actors.
    One of our witnesses, Mr. Hunt, is a global expert on these 
issues and that's why your testimony is so very valuable to our 
work, especially on how bad actors can compromise identity 
through the collection of personal information and data that 
already exists in the digital universe.
    He endured a 27-hour journey to be here, I am told, and I 
suspect his testimony will be illuminating for all of us. I 
thought I had a long trip back and forth to the West coast 
every week.
    We can no longer ignore the current reality. Whether 
through theft or voluntary disclosure, our information is out 
there and this is not likely to change.
    Social media will continue to grow. Social, cultural, and 
economic benefits are just too great for it not to. Likewise, 
digital commerce and online transactions are integral to our 
economic prosperity both now and in the future.
    As our lives become increasingly entwined in the digital--
with the digital space, this must come with an acceptance that 
our information will always be at risk.
    Such is the nature of the cyber threat we face and there is 
no perfect security in the connected world. But that makes it 
even more important that we find ways to reduce vulnerabilities 
in our digital ecosystem.
    Clearly, identity is one of those weaknesses. So therefore, 
I look forward to the work this committee is doing and the 
testimony you all have submitted to us and the policies that 
will develop, moving forward.
    With that, Mr. Chairman, I yield back the balance of my 
time and, again, thank our witnesses for being here and, as I 
said, I've got a couple of these I have to bounce between. But 
we appreciate the work you're doing.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Today's hearing is about the future of digital commerce. It 
is about the future of how we ensure the person on the other 
end of an online transaction is, in fact, the person they claim 
to be. For years, we have relied on user names, passwords and 
knowledge-based questions to confirm a user's identity. It's 
not a particularly sophisticated process--your mother's maiden 
name, or the make and model of your first car aren't exactly 
reliable forms of verification.
    Regardless, this process was suitable for a period of time 
in the evolution of our connected world--but that time has 
long-since passed. As noted by one of our witnesses, it was 
almost a decade ago that the 2008 Commission on Cybersecurity 
for the 44th Presidency highlighted identity as frequent attack 
vector for cyberattacks.
    This prompted the previous administration to launch the 
National Strategy for Trusted Identities in Cyberspace [N-
STIC]. As we will hear today, this high-level Federal attention 
encouraged some progress but we have a long way to go. How far? 
Well, according to Verizon's annual Data Breach Investigation 
Report, more than 80 percent of breaches last year used 
identity as a point of compromise.
    What has changed to make existing identity management 
practices so ineffectual and vulnerable to attack? There are a 
number of factors at play but the underlying answer is fairly 
simple--today, the information necessary to compromise identity 
is readily available to those who wish to find it.
    We live in a post-breach world. Just look at the massive 
breaches that have occurred over the last several years from 
Target and Home Depot to Yahoo, Anthem, OPM, Equifax and most 
recently Uber--to name a few. I would be surprised if anyone is 
this room has not had at least some portion of their personal 
details stolen in the last 2 years, let alone through their 
digital lifetime.
    It is not, however, just stolen data the undermines current 
identity verification practices. The explosion of social media 
is also a factor. Every day consumers voluntarily post, tweet, 
and share details about their lives--adding to the rich data 
set of information available to malicious actors.
    One of our witnesses, Mr. Hunt, is a global expert on these 
issues--especially how bad actors can compromise identity 
through the collection of personal information and data that 
already exists in the digital universe. He endured a 27-hour 
journey to be here today and I suspect his testimony will be 
illuminating for all of us.
    We can no longer ignore the current reality. Whether 
through theft, or voluntary disclosure, our information is out 
there. And this is not likely to change. Social media will 
continue to grow--the social, cultural and economic benefits 
are too great. Likewise, digital commerce and online 
transactions are integral to our economic prosperity--both now 
and in the future. As our lives become increasingly entwined 
with the digital space, this must come with an acceptance that 
our information will always be at risk.
    Such is the nature of the cyber threat. There is no perfect 
security in the connected world, but that makes it even more 
important that we find ways to reduce vulnerabilities in our 
digital ecosystem. Clearly, identity is one of those weaknesses 
and I look forward hearing from all our witnesses about what 
options exist to address this challenge.

    Mr. Griffith. Thank you, Mr. Chairman. I appreciate that.
    I will tell you that Mr. Hunt not only sacrificed with the 
27-hour flight to get here but also put on a suit and tie for 
us where he normally wears jeans and a black T-shirt, 
according, at least, to his comments on the internet.
    [Laughter.]
    Mr. Griffith. But anyway----
    Mr. Walden. I was starting to wonder if it's actually him 
or a stolen identity before that. But I don't know. Thank you.
    Mr. Griffith. Anyway, thank you, Mr. Chairman.
    At this point, I would ask--oh, I would recognize Mr. 
Pallone of New Jersey for an opening statement. Glad you made 
it. Thank you.
    Mr. Pallone. Thank you, Mr. Chairman.
    I want to--I have actually got the wrong statement here 
from the other committee.
    Mr. Griffith. We will give you a minute. We have explained 
to everybody that we have two hearings going on at the same 
time and that folks are having to bounce back and forth so----
    Mr. Pallone. All right.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    So let me, again, thank you, Mr. Chairman.
    So much of our lives today is linked to what we do online 
and companies in virtually every sector of the economy collect 
vast amounts of personal data about consumers, and these 
companies know they are targets for malicious attacks and all 
too often they fail to protect the valuable consumer 
information they collect and store.
    For example, recently the ride service company Uber 
revealed that it had been hacked more than a year ago, and this 
breach reportedly exposed the personal information of 57 
million riders and drivers.
    This security breach is yet another example of a company 
that failed to protect the data of its customers and then 
failed to come clean about their security breach, in this case 
for more than a year.
    Then there was the Equifax data breach which compromised 
the personal data of more than 145 million Americans, and 
what's worse, the Equifax breach compromised personal data like 
Social Security numbers and birth dates that are difficult or 
impossible to change.
    And consumers affected by the Equifax breach are 
vulnerable, particularly because these identity verifiers can 
give someone access to other sensitive information.
    The committee is still waiting for answers to questions we 
asked Equifax both before and after our hearing on the breach 
and, obviously, that's unacceptable so, hopefully, we will get 
answers.
    It's also unacceptable to the American people because when 
companies fail to protect consumer data consumers pay the 
price, sometimes years after a breach.
    So as data breaches continue to compromise our personal 
information, it's important that we explore how consumers and 
the holders of consumer information can verify that individuals 
are who they say they are online.
    For example, how many times has each of us been asked to 
provide the last four digits of our Social Security number to 
get access to other information?
    But how do we protect consumers' digital identities, 
especially after the Equifax data breach exposed the Social 
Security numbers of nearly half the U.S. population.
    And as companies suggest that they may move to behavioral 
and biometric verifiers, are we comfortable with how much more 
personal information will be collected and used?
    Are we comfortable with trusting that companies will keep 
this data secure? And these are important questions now facing 
the world of digital commerce.
    According to the Identity Theft Resource Center, as many as 
1,190 data breaches have occurred so far this year. Any data 
breach exacerbates the issues the public is facing in verifying 
their identities and authenticating access online.
    Hackers and other malicious actors erode the trust we have 
online by using the data they've been able to glean about each 
and every one of us, and that's not good for business and it's 
certainly not good for consumers.
    So, again, I just want to thank our witnesses for being 
here today to discuss the latest in identity verification and 
the challenges of protecting people's data and I believe that 
unless we act and pass meaningful legislation we will continue 
to see more data breaches and the unfortunate ripple effects 
that result from them.
    I don't know if--you don't want to add anything? All right. 
I yield back, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Mr. Chairman. So much of our lives today are 
online. Companies in virtually every sector of the economy 
collect vast amounts of personal data about consumers. These 
companies know they are targets for malicious attacks, and all 
too often, they fail to protect the valuable consumer 
information they collect and store.
    Just this past week for example, the ride service company, 
Uber, revealed that it had been hacked--more than a year ago. 
This breach reportedly exposed the personal information of 57 
million riders and drivers. This security breach is yet another 
example of a company that failed to protect the data of its 
customers, and then failed to come clean about their security 
breach--in this case for more than a year.
    Then there was the Equifax data breach, which compromised 
the personal data of more than 145 million Americans. What's 
worse, the Equifax breach compromised personal data like Social 
Security numbers and birth dates that are difficult or 
impossible to change.
    Consumers affected by the Equifax breach are vulnerable--
particularly because these identity verifiers can give someone 
access to other sensitive information. This committee is still 
waiting for answers to questions we asked Equifax both before 
and after our hearing on the breach. This is unacceptable.
    This is also unacceptable to the American people because 
when companies fail to protect consumer data, consumers pay the 
price--sometimes years after a breach.
    As data breaches continue to compromise our personal 
information, it is important that we explore how consumers and 
the holders of consumer information can verify that individuals 
are who they say they are online.
    For example, how many times has each of us been asked to 
provide the last four digits of our Social Security number to 
get access to other information? But how do we protect 
consumers' digital identities, especially after the Equifax 
data breach exposed the Social Security numbers of nearly half 
the U.S. population?
    And as companies suggest that they may move to behavioral 
and biometric verifiers, are we comfortable with how much more 
personal information will be collected and used? Are we 
comfortable with trusting that companies will keep this data 
secure? These are important questions now facing the world of 
digital commerce. According to the Identity Theft Resource 
Center, as many as 1,190 data breaches have occurred so far 
this year.
    Any data breach exacerbates the issues the public is facing 
in verifying their identities and authenticating access online. 
Hackers and other malicious actors erode the trust we have 
online by using the data they have been able to glean about 
each and every one of us. That's not good for business, and 
it's certainly not good for consumers.
    I want to thank our witnesses for being here today to 
discuss the latest in identity verification and the challenges 
of protecting people's data. I believe that unless we act and 
pass meaningful legislation, we'll continue to see more data 
breaches and the unfortunate ripple effects resulting from 
them.
    Thank you, and I yield back.

    Mr. Griffith. Thank you very much for yielding back. I 
appreciate that, Ranking Member.
    With that being said, I would now ask for unanimous consent 
that the Members' written opening statements be made a part of 
the record. Without objection, they will be so entered.
    I would now like to introduce our panel of witnesses for 
today's hearing and appreciate all of you being here.
    First, we have Mr. Troy Hunt, the information security 
author and instructor for Pluralsight. Next is Mr. Jeremy 
Grant, who serves as the managing director of Technology 
Business Strategy at Venable. And finally, we have Mr. Ed 
Mierzwinski, who is the consumer program director at U.S. PIRG, 
or PIRG.
    Thank you all for being here today, and I look forward to 
your testimony and we appreciate you providing that testimony. 
We look forward to the opportunity to discuss identity 
verification with you all.
    As you all are aware, the committee is holding an 
investigative hearing and when doing so it is the practice of 
this committee--this subcommittee of taking that testimony 
under oath.
    Do any of you have an objection to testifying under oath?
    Seeing none, the Chair then advises you that under the 
rules of the House and the rules of this committee, you are 
entitled to be accompanied by counsel.
    Do any of you desire to be accompanied by counsel during 
your testimony today?
    Seeing no request for counsel, in that case would you 
please rise and raise your right hand, and I will swear you in.
    [Witnesses sworn.]
    Seeing affirmative answers from all, you are now under oath 
and subject to the penalties set forth in Title 18 Section 1001 
of the United States Code.
    You may now give a 5-minute summary of your written 
statement, and we will begin with you, Mr. Hunt.
    Thank you so much for being here. You have 5 minutes.

   STATEMENTS OF TROY HUNT, INFORMATION SECURITY AUTHOR AND 
   INSTRUCTOR, PLURALSIGHT; JEREMY GRANT, MANAGING DIRECTOR, 
    TECHNOLOGY BUSINESS STRATEGY, VENABLE, LLP; AND EDMUND 
       MIERZWINSKI, CONSUMER PROGRAM DIRECTOR, U.S. PIRG

                     STATEMENT OF TROY HUNT

    Mr. Hunt. Vice Chairman Griffith, Ms. Castor, and 
distinguished members of the House Energy and Commerce 
Committee, thank you for the opportunity to testify today.
    My name is Troy Hunt. I am an independent information 
security author and instructor for Pluralsight. I am also the 
creator of data breach notification service known as Have I 
Been Pwned.
    In my time running this service, I've analyzed hundreds of 
individual data breaches containing many billions of records, 
and I've observed firsthand both the alarming increase in 
incidents and, indeed, the impact they are having on people's 
lives.
    This testimony draws on my experiences running the service 
and describes the challenges we are now facing in a time where 
data breaches have become the new normal.
    When we talk about data breaches, we are really talking 
about a range of different types of events that can lead to the 
exposure of our personal information.
    We typically think of malicious actors exploiting 
vulnerabilities and protected systems and, indeed, that's an 
enormous prevalent and alarming situation.
    But increasingly we also see data breaches occur as a 
result of simple human error. For example, accidentally 
publishing data to an unprotected publicly facing server where 
it's then discovered by intended parties.
    We have a perfect storm of factors that are causing both 
the frequency and scale of these incidents to accelerate. Cloud 
services have made it easier than ever to publish data 
publicly, and that has helped to drive the expansion of other 
online services, which have in turn increased the overall 
attack surface of the internet.
    At the same time, we have the rapidly growing internet of 
things, collecting classes of data we simply never had 
digitized in the past and, increasingly, we are seeing that 
information appear in data breaches, too.
    Organizational attitudes to our personal information lead 
to data maximization. That is a desire to collect as much of it 
as possible, often well beyond the scope of what is actually 
needed by the service it's being provided to.
    Frequently, this is without informed consent, particular by 
the likes of data aggregators and, indeed, we have seen them 
suffer data breaches, too, both here in the U.S. and overseas.
    Now, data is viewed as an asset yet organizations fail to 
recognize that it is also a liability. Exacerbating exposure of 
data is a rampant trading scene. Data is not only sold for 
profit but regularly exchanged by individuals building personal 
collections.
    I liken it to kids exchanging baseball cards, except that 
unlike trading a physical commodity, the exchange of data 
breaches is more like making a photocopy, as the original 
version still exists.
    Once it enters circulation, it is impossible to contain it. 
The data breach genie is out of the bottle. We are also 
learning how much we don't know as significant data breaches 
that occurred years ago come to light.
    We have no idea how many more unknown incidents are out 
there, and not only do we not know which organizations have 
lost their data and are unaware of it themselves, we don't know 
which ones are deliberately concealing data breaches.
    There is a lack of accountability when a breach does occur. 
We know this because very little changes in the industry 
afterwards.
    We constantly see large data breaches and people ask, will 
this be the watershed moment where we start taking these 
breaches more seriously.
    Yet, nothing changes and we merely repeat the same 
discussion after the next incident. We are also disclosing 
large amounts of personal data of our own free will, such as 
our date of birth, by social media.
    We think nothing of it because a growing proportion of the 
population has never known a time where we didn't do this. They 
are the internet natives that have grown up in an environment 
of personal information sharing.
    Consider the impact on knowledge-based authentication, the 
very premise that there is information that you know that is 
sufficient to prove your identity. That same information is 
increasingly public.
    My dad recently had some help setting up a new broadband 
connection, and after calling up the provider the first thing 
they asked him was his date of birth. That's the same personal 
attribute I had exposed after I donated blood and that 
subsequently appeared in a data breach.
    And that is really the challenge we have today, the premise 
of authenticating one's self with information that only they 
should know, yet is increasingly in the public domain.
    That worked years ago when information was contained in a 
small number of silos, but that's not the world we live in 
today. And consequently, our assumption about who knows what 
has to change accordingly in the age of the data breach.
    Thank you very much.
    [The prepared statement of Mr. Hunt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Griffith. Thank you, Mr. Hunt. I appreciate that, and 
now recognize Mr. Grant.

                   STATEMENT OF JEREMY GRANT

    Mr. Grant. Good morning, Vice Chairman Griffith, Ms. 
Castor, members of the committee. Thank you for the opportunity 
to discuss identity with you today.
    As background, I've worked for more than 20 years in both 
industry and Government at the intersection of identity and 
cybersecurity.
    In 2011, I was selected to lead the National Strategy for 
Trusted Identities in Cyberspace, or NSTIC, which was a White 
House initiative focused on improving security, privacy, 
choice, and innovation online for better approaches to digital 
identity.
    In that role, I built out what is now the Trusted 
Identities Group at the National Institute of Standards and 
Technology and also served as NIST's senior executive advisory 
for identity management.
    I left Government in 2015 and now lead the Technology 
Business Strategy practice at Venable, a law firm with the 
country's leading privacy and cybersecurity practice, though I 
should note today my testimony represents my views alone.
    So let me say up front I'm quite grateful to the committee 
for calling this hearing today. Identity is a topic that 
impacts every American but it's only recently that identity has 
started to get proper attention from policy makers in the U.S., 
and at a high level the way that we handle identity in America 
impacts our security, our privacy, and our liberty.
    From an economic standpoint, particularly as we start to 
move high-value transactions into the digital world, identity 
can be the great enabler, providing the foundation for digital 
transactions and online experiences that are more secure, more 
enjoyable for the user and, ideally, more respectful with their 
privacy.
    When we don't get identity right we enable a great set of 
attack points for criminals and other adversaries looking to 
execute attacks in cyberspace and, unfortunately, we have not 
been doing very well here.
    Last year, a whopping 81 percent of hacking attacks were 
executed by taking advantage of weak or stolen passwords. 
Eighty-one percent is an enormous number.
    It means that it is an anomaly when a breach happens and 
identity does not provide the attack factors and, as my 
colleague, Troy, will probably discuss today with his Web site, 
Have I Been Pwned, there is now billions of compromised 
usernames and passwords that are out there in the marketplace. 
It is high time we find a way to kill the password.
    Outside of passwords, we have seen adversaries go after 
massive datasets of Americans in large part so they have an 
easier time compromising the questions used in identity 
verification tools like KBA.
    This was illustrated quite vividly by the 2015 hack of the 
IRS' Get My Transcript application where more than 700,000 
Americans had sensitive tax data compromised.
    A key takeaway for this committee to understand today is 
that attackers have caught up with many of the first generation 
tools that we have used to protect and verify identity.
    The recent Equifax breach might have driven this point home 
but the reality is that these tools have been vulnerable for 
quite some time.
    There are many reasons for this, and there is certainly 
blame to allocate. But the most important question at this 
point is, What should Government and industry do about it now?
    As I lay out today, I believe the Government is going to 
need to step up and play a bigger role to help address critical 
vulnerabilities in our digital identity fabric.
    There are five primary areas where Government, working 
together with the private sector, can help address the 
weaknesses of first generation identity verification and 
authentication tools and deliver next-generation solutions that 
are not only more secure but also better for privacy and 
consumer experiences.
    First, when talking about the future of the Social Security 
number and whether it needs to be replaced, it is essential for 
folks to understand the difference between SSN's role as an 
identifier and its use as an authenticator.
    SSN should no longer be used as authenticators but that 
does not mean we need to replace them as identifiers. Instead, 
let's just try treating like the widely available numbers that 
they are.
    That means that as a country we stop pretending that 
knowledge of somebody's Social Security number can actually be 
used to prove that they are who they claim to be.
    Second, along with the SSN let's just recognize how useless 
passwords have become as a security tool. There is no such 
thing as a strong password in 2017 and we should stop trying to 
pretend otherwise.
    Third, recognize that it's not all bad news out there. 
Government and industry have recognized the problem with old 
authenticators like passwords and SSNs and they've actually 
been working together the last few years to make strong 
authentication easier.
    Multistakeholder efforts like the FIDO Alliance, which Vice 
Chairman Griffith mentioned earlier, have developed standards 
for next-generation authentication that are now being embedded 
in most devices, operating systems, and browsers in a way that 
enhances security, privacy, and user experience. The Government 
can play a role in helping to drive user adoption.
    Fourth, while authentication is getting easier, identity 
proofing is getting harder as attackers have caught up to 
first-generation solutions like static KBA.
    This might actually be the most impactful area where the 
Government can help, by allowing consumers to ask agencies that 
already have their personal information and have validated it, 
in many cases with an in-person process, to then vouch for them 
for--with other parties that they seek to do business with.
    The Social Security Administration and State Department and 
Motor Vehicles have the most to offer here, and this is 
actually a concept that was embraced in the 2016 report from 
the bipartisan Commission on Enhancing National Cybersecurity.
    Here, the Federal Government should work to develop a 
framework of standards and rules to make sure this is done in a 
secure, privacy-enhancing way and look at funding work to get 
it started.
    Finally, technology can help solve the problem but better 
standards will be needed for companies and agencies to apply 
it. Further investments in Government research and standards 
work can go a long way toward making it easier for any party in 
the public or private sector to implement stronger identity 
solutions.
    I appreciate the opportunity to testify today and look 
forward to answering your questions.
    [The prepared statement of Mr. Grant follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
 
    
    Mr. Griffith. I thank the gentleman and now recognize Mr. 
Mierzwinski for 5 minutes.

                STATEMENT OF EDMUND MIERZWINSKI

    Mr. Mierzwinski. Thank you, Vice Chairman, and 
Representative Castor, and members of the committee.
    The Equifax breach was an epic fail in a lot of different 
ways. I know that this full committee has held hearings on it.
    Mr. Walden, the chairman of the full committee, used an 
excellent line when he said, ``I can't fix stupid,'' when he 
was talking about Equifax's many problems.
    I agree with the chairman on that, but I want to point out 
a few other points about Equifax that may not have been pointed 
out in that hearing.
    First of all, I think everybody sees them as a credit 
bureau, and that is true--they are one of the big three credit 
bureaus that collect information and sell it for the purpose of 
employment and credit and insurance decisions.
    They are gatekeepers to our financial and economic 
opportunity. So it's very important that they do a better job. 
In fact, that's their only job is buying and selling data. So 
you can't blame Target or even OPM the same way you can blame 
Equifax for their many, many epic fails in that--in that 
debacle.
    But I want to point out also--and the Federal Trade 
Commission has issued several reports on this--Equifax is not 
only a credit bureau. It is a data broker, and data brokers, 
unlike credit bureaus, are ubiquitous in society and they are 
virtually unregulated and they buy and sell information every 
day that's very similar to credit reports but unregulated. So 
we need to take a look at the data broker system and figure out 
a way to regulate it more closely.
    Second, I think we need to go back to first principles. Mr. 
Hunt referred to data maximization. The code of fair 
information practices says data minimization should be a goal 
and the code of fair information practices is embedded in a 
number of our laws, including the U.S. Privacy Act of 1974.
    So we can't just protect all information. We've got to 
start collecting less information and keeping it for shorter 
periods of time.
    We have already heard from several witnesses and members of 
the committee about the problem of SSNs as identifiers and 
authenticators.
    But I want to point out that our credit reporting system, 
how we obtain credit in society, a bad guy doesn't try to get 
your credit report. That's very hard to do.
    A bad guy gets your Social Security number and goes to a 
creditor, and a creditor, being a trusted partner to the credit 
bureaus, gets your credit report and gives credit to the 
imposter. That's a very flawed system that needs to be fixed.
    The principal thing that I think Congress should do in 
response to Equifax, and I think it's bipartisan, is make 
credit freezes free.
    Credit freezes are the best way to protect your identify 
from financial identity theft. But, unfortunately, they cost 
money in most States.
    The problem of KBA authentication has already been 
discussed. I want to point out it's so obsolete it's pathetic 
and it also upset--it's not only bad because imposters can do 
one-second searches on the internet and obtain answers to the 
questions.
    Sometimes consumers don't know the answers to the 
questions. My colleague was asked how much credit her--you 
know, her family member Chester had. Chester was her dog. He 
died years ago. She was 5 years old. Why is Chester a security 
question? What is the name of your first student loan company? 
Was it Sallie Mae or was it Navient? They keep changing the 
names of all of these companies. It's all ludicrous.
    On multifactor identification, I think it's a real positive 
step. But I do want to point out that biometrics, the third 
general multifactor authentication--something you know, 
something you have, and something you are--privacy groups are 
very concerned about databases of biometric information posing 
privacy and civil liberties threats.
    But on the other hand, if my fingerprint is only stored in 
my phone, perhaps that's a better solution. I'm very encouraged 
by the work that the other witnesses have talked about.
    The FIDO Alliance and the NIST program have been open-
source, open-standard, multistakeholder investigations of how 
to improve our privacy and authentication mechanisms.
    On the other hand, I contrast that to the credit card PCS 
standards that have been imposed on merchants. The Target and 
the Home Depot, the Michael's, et cetera--all the merchant 
breaches--you can't blame the merchants for having to use an 
obsolete credit card with a magnetic stripe.
    And now the--now the first have gone to a chip card, which 
is a type of tokenization, and that is good but they could have 
gone further. They could have gone to chip and PIN. They could 
have gone to best available technology.
    So we have made some progress but a lot more needs to be 
done. Thank you very much for the time.
    [The prepared statement of Mr. Mierzwinski follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Mr. Griffith. Thank you. Appreciate that, and we will now 
begin the questioning, and I will start with questions.
    Mr. Hunt, in your testimony you talk about the exposure of 
data due to accidental misconfigurations of cloud services. You 
were certainly spot on.
    One such misconfiguration was discovered in the Federal 
Government this week, and it has been reported that this is the 
fifth time the Government has suffered a similar accidental 
exposure this year.
    Indeed, many companies, including Uber, have suffered 
information compromises because of these kinds of 
misconfigurations.
    Why does this keep happening? Is it really that easy to 
accidentally share your cloud services with the world?
    Mr. Hunt. Well, the easy answer to the last question is 
yes, it is that easy. It's very often just a simple 
misconfiguration, and the difference between, let's say, a 
storage account within Amazon being protected and needed 
credentials in order to access it and being wide open is 
literally one configuration that can take seconds to make.
    So in terms of why it's that easy or how come this keeps 
happening so frequently, very often this is a competency 
problem. So people have access to resources such as cloud 
services that aren't sufficiently skilled in order to figure 
out how to configure them securely. Sometimes it can just be a 
simple oversight and there's not enough backup controls to 
identify when something like this is exposed publicly.
    It is also very difficult for organizations because when 
cloud services are used they tend to very frequently sit 
outside their known address base.
    So, traditionally, an organization could say these are our 
IP addresses, this is the range of our scope of assets and then 
you can go onto the cloud and you can put things in totally 
outside that construct.
    And then compounding that as well we have this--this, I 
guess, construct called Shadow IT and for the longest time we 
have had the concern of Shadow IT--people working outside the 
formal constructs of the way the IT department and organization 
should run.
    And today, it is very simple for someone in an organization 
to go to the likes of Amazon and say, ``Look, I would like a 
storage account. I am going to publish data there,'' and the IT 
department never even knows about it.
    So there's a number of factors leading to the prevalence of 
what is now becoming a very common event.
    Mr. Griffith. Now, are any of the data breaches included in 
your service from such a misconfiguration?
    Mr. Hunt. From which, sir?
    Mr. Griffith. From--from your service.
    Mr. Hunt. Oh, from misconfiguration?
    Mr. Griffith. Yes.
    Mr. Hunt. Yes, many of them. So we are seeing many 
incidents. The perfect example that comes to mind, earlier this 
year we had an OIT device called a CloudPet.
    It is literally a teddy bear with a listening device that 
talks to the internet. Their data was left publicly exposed in 
a database facing the worldwide web without a password. And, 
again, that is just a simple misconfiguration on their behalf.
    Mr. Griffith. Wow. What can companies do to decrease the 
likelihood of this kind of a misconfiguration?
    Mr. Hunt. It's a combination of things. To me, many of 
these incidents, whether it be misconfiguration or flaws in 
software, come back to education, and this is the sort of thing 
we are trying to do with Pluralsight.
    Let's try and get education out there to the people that 
are building these systems and standing them up. Because so 
frequently it is just such a simple little thing and had the 
person understood what the ramifications of the configuration 
change they're making or the code change they're making was, it 
wouldn't have happened. So I would love to see more education.
    Mr. Griffith. And what are the consequences? I mean, we can 
all think of some. But what are the consequences of companies 
exposing this kind of data?
    Mr. Hunt. Really depends on the data. I mean, at sort of 
the least end of the scale, very often we are seeing large 
amounts of email addresses and passwords.
    Now, that then often becomes a skeleton key into other 
things because we know that people reuse their passwords.
    So that--I almost hesitate to say that's the best that 
could happen. But when we think about the worst that could 
happen, well, now we start to talk about large amounts of very 
personal data.
    So we have been speaking about the impact of things like 
the Equifax incident. South Africa just recently had an 
incident which was data exposed as a backup on a publicly 
facing server that had information about the entire country and 
this included their national identifier, so think about a 
Social Security number, which within there also includes date 
of birth and gender, and now we have got a whole country saying 
we literally had all of its data published on the internet and 
we know that it had been obtained by other unauthorized parties 
and redistributed.
    But what do we do? And to me, that's sort of the worst-case 
scenario, because now you got a whole country saying, how are 
we going to do knowledge-based authentication when the 
knowledge about the whole country has gone public?
    Mr. Griffith. Now, from what I understand, when folks go 
back and analyze many security instances like data breaches, 
they find that somewhere along the line someone in the 
organization chose convenience such as the ability to check 
their personal email from their work computer, for example, 
over security. Have you found that to be true as well, in your 
work?
    Mr. Hunt. Absolutely. I mean, the concern with 
convenience--I will give you a really good analogy--is very 
often I will say to people, look, we might see an application 
talking to a database that has effectively server admin 
rights--the most privileged user you could possibly have--and I 
will say to people, why would that happen. And they say, well, 
it was easy--it was much easier to give access to everything 
than to start implementing fine-grained permissions. And they 
are right, it is much easier. But that then leads to the 
problems we have got here.
    Mr. Griffith. And so, how do we make it easier to protect 
things--protect that data?
    Mr. Hunt. Well, again, I go back to that education side. 
This is people making mistakes unknowingly, and when we see 
these happen over and over again and we look at the behaviors 
of the individuals, very often it is because they've never been 
taught what are the ramifications of setting this configuration 
or writing code that way.
    Mr. Griffith. Yes. I do think we all choose convenience 
from time to time when we know in our hearts we ought not.
    With that, I have to yield back because my time is up and 
now recognize Ms. Castor of Florida for 5 minutes of questions.
    Ms. Castor. Well, thank you, Mr. Chairman.
    As the Equifax breach made all too clear, there's an 
astounding amount of data that is collected by companies and 
especially credit bureaus.
    The Equifax breach, for example, exposed the personal 
information including names, Social Security numbers, birth 
dates, addresses, other sensitive data of almost 150 million 
Americans.
    Mr. Grant, if this data is out there, should companies no 
longer use this information as a component of identity 
verification online?
    Mr. Grant. I wouldn't say that they shouldn't use the 
information anymore, but they should be smart about the ways in 
which they use it and I think there needs to be a recognition, 
you know, across Government and industry that these first-
generation systems that we were using, the attackers have 
caught up with them.
    So let's figure out where it can be valuable in a process 
to establish identity or authenticate identity and where it 
can't be. I think there are still tools that are out there that 
are using some of this data that could be--you know, I often 
talk about, you know, you have an arrow with multiple quivers 
in terms of, you know, the tools that you're using.
    There still may be some value. But I think we need to 
recognize that it is been greatly diminished and we need to 
focus on next-generation solutions.
    Ms. Castor. So, Mr. Mierzwinski, a similar question. In 
your testimony, you stated in reference to Social Security 
numbers that, quote, ``you cannot authenticate with a number 
that is also an identifier, especially one that anyone can 
obtain, thanks to the data breach world that we live in.''
    This seems like a good reason to prevent companies from 
using the Social Security number as an authenticator. Is that 
right?
    Mr. Mierzwinski. Well, I think you're absolutely right, 
Congresswoman, and many people don't know that the Social 
Security number was invented so long ago it doesn't even have a 
correct check sum number.
     When you type your credit card number and make a mistake 
in an online form, it knows instantly. Your Social Security 
number can be completely garbled and it wouldn't know.
    The first five digits actually aren't really about you. 
They're about when you were born and where you got your number 
more than unique. So it is a very big mistake.
    I am encouraged that some of my banks know that when I've 
logged on from a new machine or even a new place. But others of 
my banks and other companies that I do business with don't ask 
me extra questions or don't want to send me a text.
    So it is uneven how companies are doing better 
authentication and, to me, you have also got to penalize them 
when they make a mistake.
    I realize Equifax and other firms will be penalized by the 
market. However, I wonder whether regulators need more 
authority to penalize companies that lose our info.
    Ms. Castor. So let's talk about that especially. You 
mentioned the data brokers. Even outside of data breaches, 
internet-connected datasets contain vast information.
    A University of North Carolina study showed that data 
brokers can obtain almost anything from demographic data to 
financial data to travel data.
    In your opinion, are there adequate safeguards in place to 
limit what information data brokers collect, store, and sell 
about us? It seemed in your testimony you said no, it is kind 
of the ----
    Mr. Mierzwinski. No, despite--and you can find many items 
on the record from me criticizing the credit bureaus and the 
Fair Credit Reporting Act for being too weak. It actually is 
one of our stronger privacy laws. There are virtually no laws 
that apply to data brokers and they are out there in a Wild 
West ecosystem of digital collection and selling of information 
about consumers in real time, and as I believe the vice 
chairman pointed out in his opening statement, a lot more 
information is being collected into their databases.
     Your locational information is, for one, a new piece that 
should be protected that isn't protected under many laws.
    Ms. Castor. So are there any incentives currently in place 
for companies to minimize the data they collect and store?
    Mr. Mierzwinski. Unfortunately, I don't know that there are 
enough and there--public shaming helps but regulatory 
accountability would help even more, and companies just feel 
that we are not their customers.
    Consumers are not Equifax's customer. Mr. Smith, the ex-
CEO, said that before numerous committees over the last month. 
Business is their customer. We are their product. We need to 
get them to think about taking care of us, and they haven't.
    Ms. Castor. Mr. Grant, thank you for all of your work on 
the National Strategy for Trusted Identities. The identity 
ecosystem adheres to fair information practice principles, one 
of which is data minimization.
    This is the idea that organizations should collect only 
information that is directly relevant and necessary to 
accomplish the specified purpose. Is that right?
    Mr. Grant. Yes.
    Ms. Castor. So now it seemed to me, in this day and age, 
companies want to know everything about you. I am going to ask 
you the same question. What incentives are currently in place 
for companies to minimize the data they collect and store?
    Mr. Grant. Well, I will say concerns both about regulatory 
enforcement as well as liability that they might face by having 
too much data.
    You know, Mr. Hunt talked before about data maximization. 
When I was running the NSTIC program there was a term one of 
our staffers coined, which was data promiscuity--the practice 
that, you know, companies are just quite open in terms of 
collecting and sharing gobs of data.
     And I do think one thing you're starting to see now, 
particularly when some of that data is exposed in a massive 
breach, is other companies take a look at it and say, do we 
actually want to have all of this data.
    And so, you know, now that I am in the private sector I 
spend a lot of time working with companies, advising companies 
on how to minimize their risk, and I would say there are some 
companies that still want to hoard data and there are some that 
are realizing that it might be a liability and are actually 
trying to put proactive measures in place to reduce the 
footprint of data that they have on their customers and really 
focus only on what they need.
    So I do think a mix of regulation and liability does have 
an impact in the marketplace. You know, certainly, if you look 
across the ocean to what's happening in Europe right now with 
the impending implementation of Europe's general data 
protection regulation--GDPR--there's a lot of companies here in 
the U.S. that are still going to be impacted by that and that's 
also causing some firms to wake up and reevaluate in some cases 
what data they collect, how they store it, how they use it.
    Ms. Castor. Thank you.
    Mr. Griffith. I thank the gentlelady for yielding back.
    Now recognize the gentleman from New York, Mr. Collins, for 
5 minutes of questions.
    Mr. Collins. Thank you, Mr. Chairman.
    And Mr. Hunt, I guess it is 3:00 a.m. right now so I am 
hoping you got some sleep on the flight coming up from Down 
Under.
    I want to try to put today's hearing maybe in context just 
for the everyday person. So many of us--you know, every three 
months one of our credit cards is accessed in some way. Usually 
we find out because we get a notification--a fraud alert from 
American Express or Master Card. They've actually got some 
algorithm somewhere that says, this looks unusual, or 
something.
    So I want to make sure I understand. That's a little--
people doing that, grabbing our credit report and stealing our 
numbers is perhaps different than the data breach area, or not?
    Mr. Hunt. Where it probably differs to credit cards is 
there are a lot of different places where credit cards are 
exposed which may not be as a result of a data breach.
    I've had my wife's card compromised several different times 
now and, as you say, you hear from American Express----
    Mr. Collins. Because I am sure she uses it daily.
    [Laughter.]
    Mr. Hunt. Well, she does appear to use it regularly, 
evidently. When this happens, she will, as you say, get fraud 
alerts from the bank.
    Now, that could have been anything from--we might have been 
in a taxi in a particular location and they scribbled down the 
number when they had physical access to it. You give it to 
someone at a restaurant, they go behind the counter. It could 
have happened in an incident like that. It could have been that 
a single merchant resold the data after purchasing something 
online.
    Now, that's not necessarily the same as someone who was a 
malicious party came along, found a vulnerability in software, 
and sucked out a million different records in one go.
    Mr. Collins. Yes. So I wanted to kind of make--because I 
think sometimes we confuse the two and I think most of us are 
impacted by somebody grabbing our credit card more than not.
    Then we got to go to the inconvenience--getting a new card, 
set up on autopay. You know, I probably have to do that three, 
four times a year, even.
    So here we are talking about data breach. So now it begs 
the question, when someone is getting that, and I certainly 
understand someone, if they had enough, could try to apply for, 
I don't know, a mortgage or something.
    But that probably doesn't impact too many Americans as much 
as somebody stealing their credit cards.
    So it kind of begs the question, these data brokers, as we 
call them--it sounds like a business because there's guys--and 
it sounds like they're--are they continuing to try to fill out, 
you know, for, you know, myself, you know, there's people with 
my same name, so I don't know.
    Are they sorting by my last name? My first name? My middle 
initial? As they find out that I, you know, just went to the 
SPCA and got a new cat, you know, what's the cat's name.
    You know, how are they sorting this? By Social Security 
number? By address, in multiple ways, and as you said, trading 
baseball cards--are they doing this for fun? And then once they 
have it, and they're just out there selling it, why can't we 
catch these guys?
    If somebody--I think of Raymond Reddington on ``The Black 
List,`` you know. He'd be the guy buying this stuff. Why can't 
we find them, shut them down? And so that kind of general 
questions. What would you add to that?
    Mr. Hunt. I would say one point to maybe sort of 
disambiguify here is when I made the comment about trading 
baseball cards what I am talking about is there are a lot of 
individuals out there who obtain access to data breaches and 
then they redistribute them between peers--not necessarily 
commercial legal entities like data brokers such as Equifax but 
individuals, in many cases children, sitting in their bedroom 
going, hey, I've got a data breach--you have got this one--
let's swap and we'll build up these personal collections.
    Now, that is not necessarily with malicious intent but it 
does lead to the redistribution and the growth of the amount of 
data that's out there.
    And then in terms of the data brokers, in terms of the 
legally operating entities, very often they refer to data 
enrichment, which is like let's just get as much data as we can 
about the individuals, refine it so that we have very, very 
clear pictures because that makes the product that they offer 
that much more valuable.
    And then whether they sort it by your Social Security 
number or your name or your job title, whatever it may be, that 
got significant amounts of data that they can offer people, 
whatever sort of sorting or filtering mechanism they like.
    Mr. Collins. So in this case, you're referring to a data 
broker as a legal entity----
    Mr. Hunt. Correct.
    Mr. Collins [continuing]. Not a blacklister that's out 
there selling it?
    Mr. Hunt. That's right.
    Mr. Collins. All right. So the folks that are out there 
selling it on the darknet or whatever, just walk us through--we 
don't have a lot of time--how are they finding their customers, 
verifying it is not an FBI or somebody under cover?
    Mr. Hunt. Well, they don't always get that right.
    [Laughter.]
    So how are they selling it? Well, very often we see data 
breaches being traded on the same sorts of marketplaces that 
are trading things like drugs.
    So we have seeing very prominent darkweb Web sites--the 
Silk Road, Hansa Market, AlphaBay. Now, many of those services 
have now been shut down but others have emerged in their place 
and they operate on Tor hidden services on the darkweb, which 
does make it very difficult many times to actually track them 
down. So they operate illegal marketplaces and data breaches 
are another commodity like heroin.
    Mr. Collins. Well, I appreciate all your comments. My time 
is up. I yield back, and thank you for coming up from 
Australia.
    Mr. Griffith. I thank the gentleman for yielding back.
    I now recognize Mr. Tonko of New York for 5 minutes for 
questions.
    Mr. Tonko. Thank you, Mr. Chair.
    In recent years, as breaches have become more common, 
companies and technology have not kept pace to protect 
consumers. As more breaches occur, more consumers are at risk 
for identity theft and other crimes.
    While progress has been made, we must do much more to, 
obviously, protect consumers. Many ongoing concerns were 
brought to the forefront once again with the Equifax breach. 
More than 8 million New Yorkers were affected by the Equifax 
breach including many of my constituents.
    One constituent, who I will label as Lee from Albany, asked 
Equifax, why are you using this gross misconduct to turn your 
victims into customers for a paid monitoring service that you 
will profit from.
    Mr. Mierzwinski, can you speak to Lee's concerns that 
companies are profiting off these breaches?
    Mr. Mierzwinski. We think it is outrageous and we wish it 
would stop. The companies have turned consumers into cash cows.
    They're responsible for keeping our information safe and 
keeping it accurate. They don't, and so instead they say, you 
better buy this credit monitoring service at $19.95 a month, 
and the marketing of these services is extremely deceptive. 
Several banks have been fined by the bureau and several of the 
credit bureaus have been fined by the FTC.
    A third party company, Lifelock, has been fined by the FTC 
and numerous State's attorneys general. After it violated the 
terms of its settlement order, it was fined an additional $100 
million for contempt.
    So the marketing of credit monitoring is unfair, and you 
don't need credit monitoring either because you can get your 
credit report for free under Federal law. In seven States, you 
can get a second credit report for free from each of the three 
companies.
    If you file a fraud alert--a 90-day fraud alert--after you 
have been a victim of a breach, you could get an additional 
free credit report, get them every three months, and you have 
got your own free credit monitoring.
    But Equifax should not be profiting. We'd like to put a 
stop to it and we'd like them to not charge consumers for 
freezing.
    Mr. Tonko. Thank you.
    And Mr. Mierzwinski, again, you discussed the privacy risks 
that come along with biometrics. Can you elaborate on these 
risks?
    Mr. Mierzwinski. Well, very simply, I think that as we put 
our biometric information into databases, it becomes another 
commodity in the cloud.
    It becomes another way that you can steal information about 
a consumer, if you steal my fingerprints or my retina scan, 
it's--you could clone yourself as me in a lot of different 
ways.
    I am not an expert on whether that is being done yet today, 
but we are very concerned and also concerned about the civil 
liberties aspects of Government agencies getting access to the 
information in the databases without warrants, et cetera.
    Mr. Tonko. Mm-hmm. I thank you for that.
    And a 2017 New York Times article described the nightmare 
that Americans face when confronted with identity theft. The 
article referenced a study on identity theft and pointed out 
that, and I quote, ``Last year, 15.4 million American victims 
of identity theft lost $16 billion.''
    The article continues, describing cases where Americans 
were denied the ability to refinance their mortgages or tax 
refunds were fraudulently sent to hackers and other similar 
cases.
    So Mr. Mierzwinski, many companies use certain information 
to verify someone's identity like a full name, home address, 
and Social Security number. Now with the data for nearly half 
of Americans stolen, is it true that malicious actors could 
retrieve those identifiers?
    Mr. Mierzwinski. Absolutely malicious actors can retrieve 
your information in a variety of ways. They can even retrieve 
more information if they've only obtained some.
    So the Yahoo breach largely obtained for the bad guys phone 
numbers and email addresses. That's the way that you can then 
conduct phishing and spear phishing exploits to get more 
information from consumers or even call them on the phone and 
say, ``I've got your Social Security number. I am going to read 
part of it to you. You read the rest of it to me''--those kinds 
of gimmicks--social engineering. It is easier than hacking, 
actually.
    Mr. Tonko. Mm-hmm. The article also makes the case that we 
shouldn't necessarily get rid of using Social Security numbers 
to identify someone but that we should stop using it as an 
authenticating factor.
    Mr. Grant, do you agree with that?
    Mr. Grant. Yes. I wrote an op-ed that was published in The 
Hill about a month ago that made that same point. I think we 
need to understand how Social Security numbers are both an 
identifier and an authenticator and essentially stop 
recognizing them for use of the latter. If I call my credit 
card company and they ask for the last four of my Social 
Security number, my answer should be, ``Why in the world would 
you think that me knowing that actually proves that I am me?`` 
My information has been stolen several times over. It could be 
anybody who's calling in making that claim.
    But as an identifier, look, identifiers are needed in the 
modern economy. The Government needs a way to track how much 
money I am making from both my job and my bank accounts. You 
know, individual companies need an identifier as well.
    Let's just treat it as something that's widely available 
and I think once we acknowledge that it is not something that 
is a secret, then we can start to focus on what comes next, 
which are better solutions for identity verification, better 
solutions for authentication that don't have the weaknesses 
that the ones that we are using today have.
    Mr. Tonko. Thank you.
    And with that, I yield back, Mr. Chair.
    Mr. Griffith. I thank the gentleman, and now recognize Mr. 
Costello of Pennsylvania for 5 minutes for questioning.
    Mr. Costello. Thank you, Mr. Chairman. I am going to try 
this with my voice.
    To all three of you, I am just going to read through a 
series of questions and ask that you weigh in as appropriate.
    You spoke in your testimony about the role of Social 
Security numbers, both as they are used now and as they should 
be used in the future.
    In particular, you're both adamant that we don't need to 
replace Social Security numbers, as some have suggested we need 
to.
    Instead, you have said that using them--or, the need to 
change them, from using them as identifiers and authenticators 
to using them solely as identifiers.
    My questions are oriented in this fashion. Are there 
barriers to moving away from Social Security numbers as both 
identifiers and authenticators? For example, are there 
Government regulations that require them in certain instances?
    Are there private sector standards that recommend or 
require their collection? And how will these organizations 
begin making the change you suggested?
    How expensive both in terms of time and resources would 
this change be and are there any potential down sides, and if 
so, what are they?
    Mr. Grant. So I am happy to jump in with that first.
    I think one point you raised is there are a lot of entities 
that are required to collect my Social Security number.
    I started a new job at Venable five months ago. They needed 
to know my SSN. Any bank account that I open they need to know 
my SSN. And that's for the purpose of an identifier and I don't 
know that there are any real issues there with them continuing 
to use that.
    There are issues that are out there in terms of, you know, 
particularly when opening financial accounts. I mean, one big 
problem we have in this country is what, you know, many people 
refer to as synthetic identity fraud--when you'll see 
fraudsters try and combine a real name and a real Social 
Security number that don't match and then start throwing it 
into the system in an attempt to establish credit, and that's, 
you know, one way that, you know, organizations are then 
defrauded or people are defrauded.
    I mean, so, you know, I think there's good reasons to keep 
using the SSN as an identifier but we could also use better 
systems to verify.
    One of the things I talked about in my opening statement 
was what Government could actually do as a provider of identity 
verification services themselves.
    The Social Security Administration knows that there's a 
Jeremy Grant that has my Social Security number that matches 
but if I go to open a new account at a bank today or a mobile 
network operator or anybody else who's collecting it, there's 
no way to electronically verify that with Social Security that 
that really matches up.
    There's a paper-based system that requires a wet signature. 
It was a great thing 20 years ago. It is 2017 now. I think you 
could actually help cut down on fraud in new account opening if 
there was an electronic way for Social Security to validate 
those numbers if queried.
    I think where there's going to be bigger issues--you were 
asking about barriers and costs and things like that--is where 
we replace the Social Security numbers and authenticator.
    So I can make fun of the credit card company I called last 
week who asked for the last four of my Social Security number 
and, obviously, there's no security value to that in 2017.
    But their next question is, well, then how do I 
authenticate you when I am talking to you on the phone, and 
that's a much harder question. I think there's some interesting 
products. There's new standards that are emerging. There's--
there are ways that you can do it. But there tends to be--the 
pace of adoption tends to lag the creation of new technology.
    And so I think this is actually an area where I would love 
to see Government partnering with industry focus more is how 
can we identify where those are--where there are promising 
technologies that could replace the first-generation tools that 
have, you know, started to fail and accelerate the pace of 
adoption everyplace.
    Mr. Mierzwinski. I agree.
    Mr. Costello. That's a good answer.
    Mr. Mierzwinski. Yes. Try to keep some of your time for 
you.
    Mr. Costello. Very good. I will yield back, Mr. Chair.
    Mr. Griffith. I thank the gentleman for yielding back.
    I now recognize Ms. Clarke of New York for 5 minutes for 
questions.
    Ms. Clarke. I thank you, Mr. Chairman. I thank our ranking 
member. I thank our panelists for their expert testimony here 
today.
    And I wanted to bring up the National Strategy for Trusted 
Identities in Cyberspace. Under President Obama, the White 
House released this strategy and this spurred the public and 
private sectors to collaborate on issues related to identities 
and online transactions.
    Mr. Grant, is it accurate that this strategy laid the 
framework for privacy-enhancing technology as well as identity 
solutions that must be secure and cost effective?
    Mr. Grant. Well, I would say it helped. I think where NSTIC 
really helped was throwing down a marker in 2011 for an 
industry that, you know, hadn't really started to think about 
this yet, and when I look at the impact several years later, 
you know--I talked about this in my written statement--
companies that liked it came in and said, hey, ``Hey, this is a 
great idea. How can we actually work with you to come up with 
solutions that align with it?''
    Even companies that didn't like the fact that the 
Government had thrown down a marker still had to pay attention 
to it because their customers were focusing on it.
    So when I look at where the market is today, look, we still 
have plenty of problems in the identity space. We wouldn't be 
having this hearing if it wasn't the case. But I think the 
strategy helped and some of the specific activities that we--
that we sponsored and funded out of NIST during the time that 
there was a national program office implementing NSTIC really 
helped to move the market along at a point much faster than it 
would have gone otherwise and, you know, also pointed the way 
to, you know, create the--you know, just pointing out basic 
things like security doesn't have to be at odds with privacy.
    Security doesn't have to be at odds with user experience. 
Those are concepts--it is not a radical statement to make, but 
there were some vendors in the space who seemed to think that 
they were going to be at odds, and this helped to show that 
there could be other ways.
    Ms. Clarke. So what--can you elaborate a little bit more as 
to what a privacy-enhancing solution may look like in the age 
of data breaches?
    Mr. Grant. Sure. So, you know, the concept of privacy 
enhancing it is, you know, how does--how do you create 
solutions that can actually give people more control over their 
personal information--have more choice in terms of what 
attributes they choose to share about themselves when they go 
online.
    And, you know, it is a catch-all term. But in terms of 
practical application, I think it is, you know, something you 
see today. Let's say you're logging in to a Web site with a 
social provider and they now give you radio buttons that, you 
know, let you choose--do I just share my name?
    Do I log in anonymously or do I share--let's say it is 
using Facebook Connect--a whole bunch of information about me 
with that site. That's, you know, one example of giving 
consumers choice in a way that's also pretty easy to select, 
you know, with radio buttons, for example, that you can click 
on or off. That is something that we didn't have in the 
marketplace before.
    I think there's other interesting approaches. You know, 
people can get--we could really go down the rabbit hole in 
terms of talking about privacy-enhancing encryption, which is 
an area that I will say there's been a ton of R&D done but I 
would say we still have barriers in the marketplace in terms of 
coming up with systems that can scale.
    I know there's really a commercial--a need for. We, you 
know, funded a lot of research there as well and NIST continues 
to do good work there today. That's probably some of the next 
generation work, I think, in terms of where the market focus is 
next.
    Ms. Clarke. So can you tell us the benefits of a universal 
two-factor authentication or similar types of technologies that 
secure a user's identity?
    Mr. Grant. Well, it is a universal two factor. Whether it 
is universal or whether you're just using two-factor 
authentication everywhere. You know, I mentioned in my opening 
statement 81 percent of breaches last year were caused by 
exploiting passwords.
    There is a reason for that. The password is really easy to 
compromise and the notion that there's such a thing as a secure 
password just doesn't make sense. You know, a lot of the 
attacks we see these days are spear phishing attacks where you 
get something that looks like a normal login to your email 
provider or your bank but it is not. It is somebody who's 
inside trying to phish your user name and password.
    If you have unphishable two-factor authentication behind 
it, that attack doesn't work anymore. Although one problem we 
are actually seeing in the marketplace is some of the first-
generation tools that we have seen for two-factor 
authentication--things like getting a code through SMS or, you 
know, through an app on your phone.
    That is phishable as well. And so, you know, I keep making 
the point we had solutions that were good for a while and now 
the attackers have caught up with them.
    Moving to unphishable authentication--you know, we have 
talked in this hearing about, you know, standards bodies like 
the FIDO Alliance that are coming up with solutions based on 
public key crypto, which is unphishable. That, I think, is 
where, you know, we need to focus there.
    Ms. Clarke. Where we need to go. OK.
    And just sort of in closing, you know, I am glad that we 
somewhat have a roadmap to improve the security of our online 
identities but it seems that more efforts are needed to 
implement these effective solutions and we need to continue to 
evolve, as you have stated, because we sort of get static after 
a while and, of course, there are those who are out there 
constantly working at how to phish and break through.
    So thank you for your response today. Hopefully, we will 
heed what you have shared with us today.
    I yield back, Mr. Chairman.
    Mr. Griffith. I thank the gentlelady for yielding back.
    I now recognize Mr. Walberg of Michigan for 5 minutes of 
questions.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel for being here.
    Mr. Hunt, I appreciate you coming all that distance. In 
fact, I've often had some sinister thoughts of sending some of 
these hackers, et cetera, back to Darwin, Australia, and let 
them confront some of the wildlife there in that beautiful but 
dangerous part of your great country. But I won't suggest that.
    One of the reasons that we are having this hearing today is 
to shine a light on a problem that we think is getting worse, 
namely, that there is so much data available on individuals 
from these various breaches that malicious actors can package 
or enrich data to create very robust profiles of almost any 
given person.
    Is that something that you have seen or heard about and if 
so is it a growing problem?
    Mr. Hunt. Yes. Look, it is certainly a concerning thing 
because, obviously, the more personal attributes you can gather 
about an individual the richer the picture you have.
    And then when it then comes to things like knowledge-based 
authentication you start to build up many different attributes. 
And in my written testimony I talk about the concern of 
aggregating from multiple services, and they're not always data 
breaches either.
    So someone might take certain attributes from one data 
breach--let's say a name and a birth date. They'll go to 
another data breach and they may get gender and home address.
    And then they'll go to open source intelligence sources 
such as LinkedIn, Facebook, Twitter, and aggregate further data 
attributes from there--your profile photo, your social 
connections. And the real concern I have there is that even 
beyond just data breaches alone there are so many sources of 
information that we literally willing publish ourselves 
publicly that we now have to start to work on this assumption 
that so many known attributes about ourselves, which we did 
previously consider to be personal attributes, are now public 
and that's the concern I have. There's just so many different 
sources and it is not just data breaches.
    Mr. Walberg. And that's what makes it so valuable then, 
that----
    Mr. Hunt. Oh, absolutely, and I can see why the likes of 
legally operating data aggregators are running great businesses 
these days because there is so much data that they can obtain 
from us.
     Mr. Walberg. Yes.
    Mr. Grant, as former head of NSTIC, this is likely an issue 
that you're familiar with as well. Did NSTIC look at this kind 
of problem and, if so, what were its conclusions and 
recommendations?
    Mr. Grant. So I would say we spend a lot of time looking at 
it in the Trusted Identities Group and NIST continues to focus 
on this.
    You know, I think probably the most--well, there's a lot of 
things that NIST has done in this space that's been Impactful.
    But one that I would point to are the updated digital 
identity guidelines. One of the NIST special publications, 800-
63-3, is the title or the code that was put out this past 
summer, which was an effort led by my old office to basically 
take a look at what is the modern state of solutions in terms 
of what we can use for identity verification and authentication 
in the marketplace and also recognize where some of the 
attackers have caught up with some of the old technologies.
    And so they published new guidance this past summer which I 
think--you know, what's been nice about it is not just in 
Government but also a number of entities in industry have 
looked at this and said, this is fantastic--this is a guidebook 
that we can use as we are building solutions for the private 
sector to make sure that we are, you know, both taking into 
account new technologies and new standards that are emerging--
things like FIDO as well as make sure that we are not using 
some of the legacy solutions that just aren't as good anymore.
    So, you know, certainly, in the topic of identity 
verification, one of the things that the new guidelines did was 
diminish the role of KBA in terms of how much you can trust it 
for identity proofing.
    It establishes that there's still a role for it in the 
process of identity resolution, you know, trying to figure out 
whether I am the Jeremy Grant who's actually applying for an 
account but says you cannot use it alone for, you know, full-
blown identity verification. That was a big change from what 
we've seen in the past.
    So, you know, one thing I mentioned in my written testimony 
some of the budget for NIST work in this area has been proposed 
for a cut in 2018 at a time when everybody's looking at, you 
know, where we can actually take some actions after events like 
the Equifax breach. I think we, you know, are going to continue 
to need more funding for research and standards in this area, 
both to help Government implement better solutions as well as 
the private sector.
    Mr. Walberg. What updated standards are you talking about 
there?
    Mr. Grant. There is updated--well, I think there's other 
work to be done still. So I think NIST has put out digital 
identity guidelines.
    I would say two things. One, attackers are always evolving 
and technology is always evolving and so it is something that 
should be updated I would say, you know, on a regular basis 
rather than, you know, a cycle that's every 5 or 10 years, 
which is often how NIST tackles the special publications.
    Beyond that, I think there's other research for areas. You 
know, for example, one of the questions that Mr. Hunt was asked 
before was about the security of cloud services and how 
entities are getting into that.
    And often, again, the attack vector there when you're 
guarding against big enterprise class data breaches is through 
identity.
    I think NIST could do a lot more work looking at enterprise 
identity and how you actually manage administration, 
authentication, authorization, analytics, and audit--what I 
call the five A's of the identity life cycle.
    There is not great guidance out there anywhere in the world 
and NIST is really well poised to help enterprises apply better 
identity security.
    Mr. Walberg. Thank you. My time has expired.
    I yield back.
    Mr. Griffith. I thank the gentleman for yielding back and 
now recognize Representative Jan Schakowsky of Illinois. The 
gentlelady is recognized for 5 minutes.
    Ms. Schakowsky. Thank you so much.
    As we talk about consumer protection, which has really kind 
of been my bailiwick for a very long time, I have to mention 
what's going on right now at the Consumer Financial Protection 
Bureau.
    OMB Director Mick Mulvaney is serving now as acting 
director as his appointment continues to be challenged in the--
in the courts and Mr. Mulvaney has been pretty much a longtime 
opponent of the CFPB and no friend of consumer protection 
regulations.
    He has already put a hiring freeze and a regulatory freeze 
in place at the agency. So Mr. Mierzwinski, I wondered if you 
could just share your thoughts on what is currently going on at 
the CFPB and perhaps how it relates now to this issue also of 
data protection, et cetera.
    Mr. Mierzwinski. Well, thank you, Congresswoman, and of 
course, the Consumer Bureau was created after the big collapse 
of the economy and it was designed to be independent of the 
political process that has corrupted a lot of the control of 
how we protect consumers in the financial system.
    By appointing--by suggesting that the head of the OMB, a 
deeply political agency of the White House, could also at the 
same time be the director of the independent Consumer Bureau, 
we just don't think that computes and we support Director 
Cordray's appointment of Leandra English as acting director.
    We truly recognize the president has the authority to 
eventually nominate and get someone confirmed by the Senate. 
But we hope that person is qualified as a consumer advocate and 
is not someone who has attacked the bureau and called it a 
sick, sad joke, as the current acting director has.
    The Consumer Bureau, in just 6 years of existence, has 
recovered over $12 billion--about $12 billion for 29 million 
Americans and has restored confidence in the financial system.
    So we like--we'd like to protect it. Going forward, you 
have pointed out one issue that is in conflict there is 
actually data security. Interestingly, the Consumer Bureau 
gained authority over Equifax when it sells credit reports 
through the Fair Credit Reporting Act.
    But the Gramm-Leach-Bliley Act under the Federal Trade 
Commission still controls on data security for a number of 
nonbanks including the credit bureaus. That's a real problem.
    Ms. Schakowsky. Yes, although before he left, Chairman 
Cordray said that he thought that there ought to be embedded 
regulators at Equifax and companies--and the other companies.
    Mr. Mierzwinski. Well, actually, he does have the authority 
or he did have. The bureau still retains the authority to 
supervise Equifax in the same manner that bank regulators 
including the bureau supervise banks, meaning the ability to be 
there in an embedded basis and look for problems before they 
get bad and also to look at the toxic--not the toxic but the 
secret sauce that the company uses to generate its credit 
scores.
    There are a lot of things that the bureau can and should 
do. But there is this one little piece of Gramm-Leach-Bliley 
that says the Federal Trade Commission is still the regulator 
for when you have a breach, when you have to notify.
    The Federal Trade Commission rule still has not created a 
notification standard at the Federal level and this is 
something people may not be aware of. The Federal Trade 
Commission under Gramm-Leach-Bliley cannot impose a penalty for 
the first violation of the data security rules.
    The bureau can and any bank regulator can impose a penalty 
for any first violation by companies they regulate. The Federal 
Trade Commission cannot.
    Ms. Schakowsky. So regardless of how big the breach is, how 
many people are affected, they do not have the authority?
    Mr. Mierzwinski. Not under their statute and not under 
their regulations. They've never done it so I don't believe 
they have the authority and it is been confirmed to me by 
former staff there.
    Ms. Schakowsky. Oh, I see. Do I have time?
    Well, let me see if I can get to one last question and that 
is about credit freezes. So the long-term risk from data 
breaches underscores the need for strong data security and 
breach notification legislation such as the--I have a bill 
called the Secure and Protect America's Data Act that I 
introduced with Ranking Member Pallone, several other members 
of this committee.
    So, again, Mr. Mierzwinski, when a company fails to protect 
consumers' data, then where does that leave the consumer? And 
let me just add also in the wake of the Equifax breach you have 
talked about making credit freezes free for consumers. How 
would that help?
    Mr. Mierzwinski. Well, how--making credit freezes free 
would give us control of our own data, and by the way, that has 
almost become a bipartisan issue.
    The next step is to make credit freezes the default on 
switch. Make the consumer information always protected until 
the consumer agrees to turn it on.
    Ms. Schakowsky. So the----
    Mr. Mierzwinski. The opposite of the current situation.
    Ms. Schakowsky. OK. Thank you so much. I yield back.
    Mr. Mierzwinski. Thank you.
    Mr. Griffith. Appreciate the gentlelady yielding back.
    I now recognize the gentlelady from Indiana, Mrs. Brooks.
    Mrs. Brooks. Thank you, Mr. Chairman, and thank you to all 
of our witnesses for being here.
    I am a former Federal prosecutor--former U.S. attorney that 
worked on and prosecuted identity theft cases between 2001 and 
2007. So this is certainly not something new.
    I haven't heard very much, quite frankly though, about 
going after the bad guys, and we are talking about the hackers 
and I want to learn a little bit more.
    And Mr. Hunt, when you talked about the analogy of it is 
like shopping for heroin or so forth on the darknet and so 
forth, could you please talk with me a little bit more? Because 
I haven't been in that world, quite frankly, since '07 and 
really want to learn a little bit more about the buyers, the 
sellers, and how do they purchase it, select their buyers and 
sellers.
    Do they earn reputations on the darknet? Can you tell us a 
little bit, and then for yourself and maybe Mr. Grant a little 
bit about what kind of cooperation you have engaged in with law 
enforcement.
    Mr. Hunt?
    Mr. Hunt. I think we can sort of speak to the last part of 
the question first, which is around reputation, so how do 
people establish a reputation.
    One of the quite intriguing things when you do see these 
dark market marketplaces or darkweb marketplaces is that in 
many ways they look very familiar.
    They look like an eBay, for example, and there are buyers 
and sellers on there that have a reputation that they gain over 
a series of trades. Now, of course, the difference is they're 
not buying iPhones or consumer electronics. It is, literally, 
drugs, data breaches, and so on.
    So that's sort of the first part of the answer. The 
establish a reputation. In terms of then identifying who those 
parties are, one of the difficulties we have with privacy and 
anonymity tools is whilst they're very good for maintaining 
privacy and anonymity for people that want to do good things, 
they're also very good at maintaining privacy and anonymity for 
people doing bad things.
    Now, we have seen a number of these marketplaces taken down 
over time but, obviously, they are much harder to track down.
    I guess to the other points, one of the things that sort of 
concerns us is that there is a thriving marketplace for this 
data and there are, I guess, various shades of gray in terms of 
who finds this data attractive.
    That's, clearly, criminals--those who literally want to go 
out and mount identity theft attacks. They find this data 
attractive.
    One of the things that worries me a little bit more is that 
it is also an attractive piece of information for more 
mainstream legitimate organizations who are looking to gain 
access to this data so that they can figure out which of their 
customers are protected.
    So we are now seeing very mainstream online web properties 
that many of us know and use on a daily basis that will tell 
people when they have appeared in a data breach and some of 
these are actually purchasing information in order to gain 
access to that to protect their customers.
    And, frankly, that--I am a little bit torn with that 
because I understand the desire to protect their consumers but 
I also worry about the incentives that provides those who are 
breaking into systems.
    Mrs. Brooks. Mr. Grant, anything you want to add?
    Mr. Grant. Not too much. I mean, my--look, law enforcement 
is quite important. It is--I think as Mr. Hunt pointed out, it 
is becoming quite hard to attract people down in part because 
of the international nature of, you know, many of the criminal 
rings that are actually running all of these, you know, 
marketplaces and what not.
    I would agree in terms of what, you know, Mr. Hunt said as 
well in terms of the same tools that can protect us and keep us 
anonymous can also be protecting them. So there are definitely 
challenges there.
     Mrs. Brooks. Has there also been evidence that nation-
states besides entities, individuals, criminal organizations 
are involved in this as well?
    Mr. Grant. Absolutely. I mean, that's something we haven't 
talked about much. I am sure most of us in this room were 
victims of the OPM breach, which I guess I appreciate that the 
Government is giving me credit monitoring services for this.
    I don't think that the government of China is looking to 
establish credit in my name. They're interested in looking 
through the 75 pages or so of my SF-86 and figuring out if they 
can compromise me because I have a top-secret clearance.
    But this is certainly something that has been quite 
interesting to other nation-states who are looking to execute 
attacks, you know, both for those purposes as well as just for, 
you know, getting into basic accounts.
    Again, if we are protecting access to an account with only 
something like static KBA and they've now stolen the answers to 
those questions, well, then you can get into them and do things 
with them.
    You know, likewise, Mr. Mierzwinski talked before about, 
you know, some of the risks of biometrics. All of my 
fingerprints are now sitting in another country somewhere 
because of the OPM breach, which means I wouldn't feel 
particularly comfortable using anything that's doing remote 
match fingerprint to secure anything that I care about.
    That said, I am really comfortable with using a fingerprint 
on my phone because you have to come get my device out of my 
hands first before you can compromise it.
    Mrs. Brooks. Mr. Mierzwinski mentioned that the credit 
monitoring services maybe have been not very honest in their 
practices.
    Do you agree that when we receive these requests after 
we've been a target of a breach that people should or should 
not be accepting those services by the company?
    Mr. Grant. You know, I don't think it hurts to accept them. 
Whether you pay for them is another question that I think----
    Mrs. Brooks. Right.
    Mr. Grant [continuing]. You know, folks are asking right 
now. Look, I think they are helpful because it is good to know 
if something is happening. It is good to be able to monitor 
your account.
    Whether you need to pay for it is another question. From, 
you know, the Government perspective as a victim of the OPM 
breach I don't know what value it offers me other than it is 
nice thing to have to be able to keep close watch on my credit.
    So it--you know, value in the service, yes. Whether, you 
know, I want to pay for it as a consumer that's another 
question.
    Mrs. Brooks. Thank you. Thank you all for your work.
    Yield back.
    Mr. Griffith. Thank you.
    I now recognize the gentleman from Georgia, Mr. Carter, for 
5 minutes of questioning.
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here and for your efforts to get here. Appreciate it 
very much.
    This is, obviously, very, very important to all of us. I 
want to start with you, Mr. Grant, and just ask you if you can, 
and please dumb it down for me, if you will, what are trust 
marks? Can you just explain that to me?
    Mr. Grant. Trust marks--sure. Best example of a trust mark 
is the Visa logo that's on two credit cards in my wallet.
    So that if I go down to the cafeteria here afterwards and 
have lunch with Troy or Ed, the cafeteria doesn't really care 
which credit card I pay with. I got one issued by Capital One 
and one issued by Chase.
    Because it is got that Visa trust mark on it, which stands 
for a bunch of standards and operating rules that govern 
everything from how that card's authenticated at the point of 
sale terminal, what security is in place, how long it takes for 
my bank to pay the cafeteria for my lunch, what transaction 
rate that they're actually going to pay in terms of, you know, 
the fee for processing that, and some would argue most 
importantly if--let's say Vice Chairman Griffith steals my 
credit card and buys lunch for the committee and I contest that 
with my bank--what am I liable for and what's the merchant 
liable for.
    So the trust mark is essentially something that represents 
all those standards and operating rules that in the credit card 
network everybody who's an issuing bank has to follow and 
everybody else has to follow.
    In the identity space, one argument--this was a lot of the 
focus of NSTIC is that we need to create something similar to 
the Visa network before identity, which is that I could have 
the issuer be my State DMV or the Social Security 
Administration, my bank, my mobile network operator.
    It could be an advocacy group like the NRA or the ACLU or 
U.S. PIRG, who all could validate my identity a certain way, 
issue me a credential that I could use everywhere and the 
reason it would be trusted is because it has that trust mark.
    Mr. Carter. Well, that's really what I am getting at 
because as I understand it, the Trusted Identities Group has 
actually farmed out, if you will, pilot projects and the 
Georgia Tech Research Institute has actually come up with the 
emphasis on the machine-readable trust marks, and it is been 
very successful and the results have been positive, 
particularly when it was--when it was over a trusted framework 
and that would encourage greater trust.
    How can this be implemented in industry? How can we use 
this?
    Mr. Grant. So I don't think--you know, a little bit of 
background on the GTRI pilot that was one of the ones that I 
selected for funding when I was, you know, running the NSTIC 
program and the idea was, you know, how can you do something 
for identity that's, you know, similar to what you see in 
financial services.
    I would say, you know, where it has gone as a pilot, it was 
a great--look, it is a pilot. It is a proof of concept, 
basically. It isn't something that's been picked up yet by 
industry.
    What I can say, though, is that work is being looked at 
by--I don't want to break confidentiality with anybody I am, 
you know, doing work with now.
    Mr. Carter. Right. Right.
    Mr. Grant. But some bigger players that matter in the 
ecosystem who are actually looking at taking that similar 
concept and actually developing a, you know, broader federated 
identity system that could be led by the private sector for 
making it easier for consumers to identify themselves.
    The idea would be to basically leverage work that's being 
done there already with I can actually say some financial 
services.
    Since banks know you, thanks to the Know Your Customer 
rules that they go through and you might trust your bank--not 
everybody does but some might--how could they vouch for you 
other places when you're looking to open up a new account.
    Mr. Carter. Right. But do you agree that this is kind of 
the route we ought to be going?
    Mr. Grant. I think--yes, I think it is a big part of the 
solution. I don't know that trust marks are going to solve 
everything. You know, look, so we did some good things with 
NSTIC.
    One of the things we didn't do is solve all the problems 
and it is because it is really complicated and there's a whole 
bunch of, you know, whether it is legal barriers, technical 
barriers, how do you create something that's really easy for 
consumers to use. There's issues that are out there.
    For as much as everybody loves to beat up on KBA and what 
the credit bureaus do, there's a reason it is been used so much 
in the market for years because that for many people it is 
work.
    Mr. Carter. Right.
    Mr. Grant. I am applying for a new credit card. I can do 
something instantly. When I went to lease a new car for my wife 
a year ago, I was able to get quick credit.
    So I don't want to suggest we throw the baby out with the 
bath water because there's problems. It is more realizing where 
attackers have caught up and how do we develop better 
solutions.
    Mr. Carter. OK.
    Mr. Hunt, any--any comments on trust marks and how it can 
be implemented into the private sector?
    Mr. Hunt. I think I would probably defer back to Mr. Grant 
as the expert on trust marks there.
    Mr. Carter. Right. Right.
    Were there any other new technologies that you find 
interesting and perhaps that have some potential?
    Mr. Hunt. I think ultimately we are going to see an 
augmentation of different practices. I mean, many people, for 
example, say, well look, is the answer biometrics or is the 
answer physical tokens.
    And where we are getting to now is I think an 
acknowledgement that we can't rely on one single knowledge-
based authentication attribute, for example--that we do have 
many other things available to us now that we didn't have, say, 
two, decades ago.
    We have ubiquitous mobile devices with internet 
connectivity. We have SMS. We have other forms of identifiers 
like physical YubiKey tokens, for example. And I think the 
right strategy moving forward is going to be the right 
augmentation of those under the right scenarios, depending on 
the trust level that you need to establish.
    Mr. Carter. Great. Thank you all again, and I yield back.
    Mr. Griffith. I thank the gentleman for yielding back. I do 
have a couple of follow-up questions just to try to clarify 
some things. Staff did a nice job, as they always do, in 
educating me beforehand. But, Mr. Grant, you used the term 
public encrypto.
    Mr. Grant. No, public key crypto.
    Mr. Griffith. Oh. And what does that mean?
    Mr. Grant. Well, so there's--we can get really geeky 
talking about cryptography now--there's essentially two ways 
you can manage cryptographic keys.
    One is called symmetric-key, which is when I got a key and 
you know the key, and I have to present the key to you for it 
to match. It is a lot--similar to the way passwords work.
    The other is what's commonly known as asymmetric public key 
cryptography, or PKI for public key infrastructure. It is what 
the Defense Department as well as the Federal Government had 
been using for years, in many cases in lieu of passwords, in 
order to, you know, come up with unphishable authentication to 
protect Federal networks and systems.
    At the end of the day, the concept is rather than each 
entity having the same key, I get a key pair, and the public 
key is known to everybody but the private key is only residing 
with me.
    It can be in my mobile phone. It could be in my computer. 
It can be on a device like the YubiKey, which is--that Mr. Hunt 
mentioned which is a FIDO standard token, and when I am logging 
in someplace, I am basically asked to sign a cryptographic 
challenge where my public key is presented but the only way I 
can get in is if I have the corresponding private key with me 
physically.
    And so the--we could really go into the details of it in 
ways that would make everybody's head explode. It is not--this 
is actually one of the problems with--about the adoption of 
technology, by the way.
    It has been very complicated. But I think the most 
important point to keep in mind is it is a way to deliver 
unphishable authentication. It is not based on shared secrets.
    And when I talk about how attackers have caught up not only 
to passwords but also things like SMS codes or other one-time 
passwords that are only good for 30 seconds, you know, that 30 
seconds is still enough for a moderately skilled attacker to 
phish my authentication code.
    Asymmetric public key crypto is where we should be building 
authentication solutions in the future so that we don't have 
phishable authentication.
    Mr. Griffith. All right. I appreciate that.
    Mr. Hunt, you travelled a long way. Is there anything that 
you had a burning desire to tell us that you haven't had an 
opportunity already to do so?
    Mr. Hunt. I think that the other thing I would add, 
obviously, I am very interested in how do we stem the flood of 
data breaches that we are seeing. And, you know, the things 
that really come to my mind that I would love to see 
implemented I mentioned education.
    So we are making lots of fundamental little mistakes. 
Another thing that's very important is making the disclosure of 
these incidents much easier.
    So I myself have been in this situation many times where 
someone has sent me data from an organization and just the 
ability to disclose it to the company, to find the right person 
who will listen, who will take it seriously, is enormously 
difficult.
    So I am very supportive of some of the initiatives we are 
seeing like bug bounties. So, for example, companies like 
BugCrowd are running many bug bounties where you as an 
organization can say if someone finds something wrong with my 
systems, I would like to know about it and I will likely pay a 
reward for that. And it is done legally, ethically, and it 
encourages the right behaviors.
    And I guess, finally, we'd also like to see more in the way 
of penalties because at the moment there's not enough 
accountability when things do go wrong, and I think we are all 
very curious to see how things like GDPR, which Mr. Grant 
mentioned earlier, how that plays out when it comes into effect 
in Europe in May where potentially an organization can be fined 
up to 4 percent of their annual gross revenue.
    Now, that starts to sting and we really hope that that 
actually drives more positive behaviors in the industry.
    Mr. Griffith. All right. I appreciate that.
    Mr. Tonko? Ms. Castor?
    Appreciate you all being here. This has been very 
informative. I suspect it'll be one of the more popular reruns 
on CSPAN, for those folks who are really into this, and I have 
learned so much.
    Thank you all for your time today and I appreciate it.
    And with that, got to go to my script so I don't leave 
anything out. I would remind Members that they have 10 business 
days to submit questions for the record and I ask that the 
witnesses all agree to respond promptly to those questions.
    Do I need to say anything else? All right. Got all that 
business--housekeeping taken care of.
    With that, the subcommittee is adjourned. Thank you.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 

                                 <all>
</pre></body></html>
